23 11 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:

contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-942
LAUREL ZUCKERMAN, as Ancillary Administratrix
of the Estate of Alice Leffmann,
Petitioner,
V.

THE METROPOLITAN MUSEUM OF ART,
Respondent.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the BRIEF OF CURRENT AND
FORMER MEMBERS OF CONGRESS AS AMICI CURIAE IN SUPPORT OF PETITIONER in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.l(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 4929 words, excluding the parts that are exempted by Supreme Court Rule
33.l(d), as needed.

Subscribed and sworn to before me this 21st day of February, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTIE

General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

39470

